Supreme Court, U.S.
FILED

WAIVER

SEP 2 2 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Shahrokh Mireskandari

20-307
Barrington Mayne et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:

El

Please enter my appearance as Counsel of Record for all respondents.

I] There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Richard Hegarty, Malcolm Lees, Barrington Mayne, David Middleton, Antony Townsend,

Law Society of England and Wales, and Solicitors Regulation Authority
I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed bye Ba - member.
Signature
Date.

September 22, 2020

(Type or print) Name

Mark T. Drooks
Mr.

Firm

❑ Mrs.

II] Miss

Bird, Marella, Boxer, Wolpert, Nessim, Drooks, Lincenberg & Rhow, P.C.

Address

1875 Century Park East, 23rd Floor

City & State
Phone

El Ms.

Los Angeles, CA

310-201-2100

Zip
Email

90067

mdrooks@birdmarella.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

cc: Becky S. James, Lisa M. Burnett, Joseph E. DiGenova, Jeffrey A. Lamken,
and Thomas Mesereau Jr.

Mark T. Drooks
mdrooks@birdmarella.com

BIRD
MARELLA

1875 Century Park East, 23rd Floor
Los Angeles, California 90067-2561
Telephone (310) 201-2100
Facsimile (310) 201-2110
www.BirdMarella.com

BIRD • MARELIA • BOXER .WOIPERT. NESSIM • DROOXS • UNCENBERG• SHOW

File 3514.8

September 22, 2020

SENT VIA OVERNIGHT FEDERAL EXPRESS
Clerk's Office — Attention Filing Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Shahrokh Mireskandari v. Barrington Mayne, et al.;
U.S. Supreme Court Case No. 20-307

Dear Clerk of the Court:
Enclosed please find for court-filing the original of Respondents Barrington
Mayne, et al.'s Waiver relating to the above-referenced case.
Please contact the undersigned should any questions or problems arise in filing the
enclosed Respondents' Waiver form.
Thank you in advance for your assistance in this matter.
Very truly yours,

Mark T. Drooks
MTD
Enclosure: Original Respondents' Waiver Form

3671978.1

RECEIVED
SEP 2 5 2020
FFICE OF THE CLERK
SUPREME COURT, U.S:

